<html>
<title> - FOREIGN MILITARY SALES: PROCESS AND POLICY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





               FOREIGN MILITARY SALES: PROCESS AND POLICY

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2017

                               __________

                           Serial No. 115-35

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-841PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tina S. Kaidanow, Acting Assistant Secretary, 
  Bureau of Political-Military Affairs, U.S. Department of State.     7
Vice Admiral Joseph Rixey, Director, U.S. Defense Security 
  Cooperation Agency.............................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................     2
The Honorable William Keating, a Representative in Congress from 
  the Commonwealth of Massachusetts: Prepared statement..........     5
The Honorable Tina S. Kaidanow: Prepared statement...............    10
Vice Admiral Joseph Rixey: Prepared statement....................    23

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53

 
               FOREIGN MILITARY SALES: PROCESS AND POLICY

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:22 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, extraneous materials, for the record, subject to the 
length limitation in the rules.
    I have an opening statement. It is an excellent statement, 
but I am not going to give a statement at this time. I am going 
to file it in the record due to the time constraints that our 
two witnesses have today.
    And so I will yield to the ranking member, Mr. Keating, 
from Massachusetts, for his opening statement if he wishes to 
give one.
    [The prepared statement of Mr. Poe follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                              ----------                              

    Mr. Keating. All right. Thank you, Mr. Chairman. I will 
just follow your lead. I know that our witnesses both have 
scheduling issues on the back end of this.
    And I just want to share, the chairman, in my view, at the 
opening--frankly, not to keep mentioning this, but we can't 
keep it out of our minds, at the same time, that our prayers 
are with the victims of the shooting and the families that 
occurred yesterday, and all those that we serve with that 
suffered trauma from this. And a reminder across the whole 
country that every day, people are suffering from this kind of 
violence, and they are in our prayers as well.
    So I will yield back, Mr. Chairman.
    [The prepared statement of Mr. Keating follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
                              ----------                              

    Mr. Poe. I thank the gentleman from Massachusetts for his 
comments. And to add a comment to what he has said, we do a lot 
of good things, I think, this subcommittee and other Foreign 
Affairs subcommittees. And those good things almost always are 
bipartisan. I mean, you can't get more bipartisan than Mr. 
Keating from Massachusetts kind of being somewhat left of 
center, and a Republican from Texas being a little right of 
center. We don't even speak the same language. But yet we are 
very bipartisan in here all the way through on both sides. And 
I want to make that statement because you don't hear that much 
here in Congress.
    So, without objection, all witnesses' prepared statements 
will be made part of the record. I will ask that each witness 
please keep your presentation to no more than 5 minutes so the 
members here can ask you questions. I will introduce each 
witness and then give them time for their comments.
    Ambassador Tina--tell me how to pronounce your name.
    Ambassador Kaidanow. Kaidanow.
    Mr. Poe. Ambassador Kaidanow is the Acting Assistant 
Secretary of State for the Bureau of Political-Military 
Affairs. In this position, the Ambassador manages the provision 
of more than $5 billion in international security assistance, 
bilateral transfers on commercial sales of U.S.-origin defense 
equipment, international security agreements, and 
implementation of the President's Export Control Reform 
Initiative.
    Vice Admiral Joseph Rixey is the Director of the Defense 
Security Cooperation Agency. He previously served as the Deputy 
Assistant Secretary of the Navy for International Programs and 
Director for the Navy International Programs Office.
    I also understand, Admiral Rixey, that you are going to 
retire. We object to that. And we still need you. But thank you 
for your long service in the United States Navy and serving the 
country.
    Ambassador, we will start with you. You have 5 minutes for 
your comments.

 STATEMENT OF THE HONORABLE TINA S. KAIDANOW, ACTING ASSISTANT 
     SECRETARY, BUREAU OF POLITICAL-MILITARY AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Kaidanow. Thank you, sir.
    And let me also express at the top, on behalf of the entire 
State Department and my colleagues--I am sure Admiral Rixey 
will also express the same--but our deep sympathy and 
condolences for those who were impacted by yesterday's 
shooting. I think that was really startling for all of us. And 
those of us who are so interactive at the State Department with 
our colleagues here on the Hill, we feel it very, very deeply. 
So, again, on behalf of the entire State Department, we wish 
them well, and we hope that they all will have a speedy 
recovery. So thank you.
    Chairman Poe, Ranking Member Keating, committee members, I 
do want to begin today, first of all, by thanking the committee 
for holding this hearing and for joining us all here today.
    It is right and it is proper that the Foreign Affairs 
Committee, and this subcommittee in particular, conduct 
oversight of U.S. arms transfer policy and procedures, because 
each of these, in our view, is fundamentally an act of foreign 
policy. In my testimony today, I will outline why this is the 
case, and I will walk through the process and the policy 
considerations by which the United States reaches a decision on 
when to and when not to offer or authorize the transfer of 
defense articles and services to a partner nation.
    I am joined today, obviously, by Vice Admiral Joseph Rixey, 
director of the Defense Security Cooperation Agency, DSCA. And 
the partnership between the Departments of State and Defense, 
and particularly between my Bureau of Political-Military 
Affairs and DSCA, are stronger now than they ever have been, 
which is really key to our effective decision-making and policy 
implementation.
    Admiral Rixey, as you said, will be retiring soon. And I 
want to take this opportunity to thank him most sincerely--and 
beg him, also, to stay--for the outstanding partnership that he 
and his team have provided to us.
    In my written testimony for this committee, I provide an 
outline of how the arms transfer processes work in greater 
detail. But before you today, I would like to highlight three 
main points.
    First, as I indicated at the outset, arms transfers 
constitute an element of foreign policy. We, therefore, take 
into account foreign policy considerations as we contemplate 
each arms transfer or sale, including, specifically, the 
appropriateness of the transfer in responding to U.S. and 
recipient security needs, the degree to which the transfer 
supports U.S. strategic foreign policy and defense interests 
through increased access and influence, allied burden sharing 
and interoperability, consistency with U.S. interests regarding 
regional stability, the degree of protection afforded by the 
recipient company to our sensitive technology, the risk that 
significant change in the political or security situation of 
the recipient country could lead to inappropriate end use or 
transfer, and the likelihood that the recipient would use the 
arms to commit human rights abuses or serious violations of 
international humanitarian law or retransfer the arms to those 
who would commit such abuses.
    As a second key point, arms transfers support the U.S. 
defense industrial base and they reduce the cost of procurement 
for our own U.S. military. Purchases made through the foreign 
military sales, known as the FMS system, often can be combined 
with our Defense Department orders to reduce unit costs. Beyond 
this, the U.S. defense industry directly employs over 1.7 
million people across our Nation. These individuals and the 
companies they work for represent a key part of American 
entrepreneurship and innovation, maintaining the United States 
as the world leader in the defense and aerospace sectors, and 
helping to ensure that our Armed Forces sustain their military 
edge.
    In authorizing the transfer of defense articles or 
services, we take these considerations into account as well. 
For each export, we examine the effect of the proposed transfer 
on U.S. industry and defense industrial base, the risk of 
revealing system vulnerabilities and adversely affecting U.S. 
operational capabilities, and the availability of comparable 
systems from foreign suppliers.
    A third key point: The arms transfer process works. The 
process is designed to review proposed sensitive transfers 
while balancing a very complex range of policy, industrial, and 
technological considerations. Even with all of that, the vast 
majority of sales move through the process quickly and 
efficiently. In some cases, certain considerations, for example 
relating to technology security, human rights, or regional 
balances of power, may slow or preclude the approval of a 
transfer. Such cases comprise a very, very small percentage of 
the overall caseload that we and our partners in DOD manage 
every day, but they tend to include some of the most high-
profile cases.
    I am often asked how we can<greek-l>, quote, deg. ``get to 
yes faster.'' As Admiral Rixey will describe, the most 
significant delays in the FMS system lie in the contracting and 
the production processes. But on those very rare occasions when 
a holdup involves the foreign policy part of this review, I 
will say this: Better a lengthy decision process that moves 
forward at the right time than a hasty process that puts 
sensitive technology in the wrong hands, ultimately undermining 
not only our security and foreign policy, but perhaps even our 
own industrial technological advantage.
    Of course, there are always areas in which we can improve. 
We are working to complete the process of export control reform 
so that we shift jurisdiction over those defense articles and 
services that do not provide America with the specific 
technological advantage from the State Department to the 
Department of Commerce, where the process is a lot easier and 
faster. This will free up a significant portion of industry 
from unnecessary red tape and encourage innovation in our 
defense sector.
    We are also working with Admiral Rixey to improve the FMS 
process, including through better educating and coordinating 
the entire defense security cooperation workforce across both 
the State Department and the Defense Department.
    I will be happy to speak about these and any other 
initiatives before you today and to answer any questions that 
you may have about the arms transfer process. But just to 
conclude these brief remarks and to emphasize one more time, I 
am glad that this testimony is taking place, and specifically 
here in this context, because the fact that the House Foreign 
Affairs Committee has oversight of arms transfers speaks to the 
essential role that such transfers play in the construct of our 
foreign policy and the pursuit of our national security 
interests.
    Your committee's continued interest and concern is a 
measure of the policy importance of these issues, and it tells 
both the American people and the rest of the world, frankly, 
that such transfers are not something the United States 
Government takes lightly. I look forward to taking your 
questions and also listening to any of your thoughts. Thank 
you.
    [The prepared statement of Ambassador Kaidanow follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
                              ----------                              

    Mr. Poe. Thank you, Ambassador.
    Admiral Rixey, you have 5 minutes.

STATEMENT OF VICE ADMIRAL JOSEPH RIXEY, DIRECTOR, U.S. DEFENSE 
                  SECURITY COOPERATION AGENCY

    Admiral Rixey. Thank you, Chairman Poe, Ranking Member 
Keating, and members of the committee. And before I get 
started, in light of yesterday's events, I simply want to state 
thank you for serving.
    I am pleased to be here today in my capacity as the 
director of the Defense Security Cooperation Agency, DSCA, to 
discuss the overall health of the foreign military sales, known 
as FMS. I am summarizing my written statement and ask that it 
be submitted for the record.
    Mr. Poe. Without objection.
    Admiral Rixey. Under the offices of the Under Secretary of 
Defense for Policy, DSCA leads the execution of the Security 
Cooperation programs, a wide range of activities enabling a 
full spectrum of capability the department seeks to provide its 
foreign partners. FMS is the government-to-government process 
through which the U.S. Government purchases defense articles, 
training, and services on behalf of foreign governments 
authorized in the Arms Export Control Act. FMS's longstanding 
Security Cooperation program that supports partner and regional 
security enhances military-to-military cooperation, enables 
interoperability, and develops and maintains international 
relationships. Through the FMS process, the U.S. Government 
determines whether or not the sale is of mutual benefit to us 
and the partner, whether the technology can and will be 
protected, and whether the transfer is consistent with U.S. 
conventional arms transfer policy.
    The FMS system is actually a set of systems in which the 
Department of State, Department of Defense, and Congress play 
critical roles. The Department of Defense, in particular, 
executes a number of different processes, including the 
management of the FMS case life cycle, which is overseen by 
DSCA; technology transfer reviews overseen by the Defense 
Technology Security Administration; and the management of a 
defense acquisition and logistics systems overseen by the 
Office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, and the military departments.
    This process, or a version of it, also serves as well in 
the DOD Title 10 Building Partnership Capacity arena where the 
process of building a case, validating a requirement, and 
exercising our U.S.-acquisition system to deliver capability is 
modeled on the FMS system.
    I want to say clearly that, overall, the system is 
performing very well. The United States continues to remain the 
provider of choice for our international partners with 1,700 
new cases implemented in Fiscal Year 2016 alone. These new 
cases, combined with adjustments to existing programs, equated 
to more than $33 billion in sales last year. This included over 
$25 billion in cases funded by our partner nations' own funds 
and approximately $8 billion in cases funded by DOD's Title 10 
program or Department of State's appropriations. Most FMS cases 
move through the process relatively quickly, but some may move 
more slowly as we engage in deliberate review to ensure that 
the necessary arms transfer criteria are met.
    It should be noted that the validations required by the 
Arms Export Control Act, such as foreign policy or technology 
transfer reviews, occur regardless whether sales conducted via 
FMS or direct commercial sales. When foreign partners choose 
FMS, however, they are assured that their procurements are 
executed with the same level of confidence as ours, and they 
will be receiving a total package approach that includes 
associated capabilities such as training, logistics, and 
maintenance.
    Though the system overall is performing well, DSCA is 
working with DOD and interagency partners to continually 
analyze the FMS process and target areas of improvement to keep 
the FMS system responsive to partner needs and agile to support 
foreign policy and national security objectives. Together with 
our stakeholders, we have developed and are implementing a 
robust set of initiatives captured in our 6-year plan, Vision 
2020.
    In addition, we are advancing key reforms directed by the 
Fiscal Year 2017 National Defense Authorization Act. Our focus 
is to improve the quality of the workforce through 
professionalism, to ensure the right quantity of the workforce 
is accomplishing our mission, and to build a more effective 
requirements prioritization system to be responsive to the 
global combatant commands while managing limited resources.
    We have a continuous improvement culture and have 
identified these priorities to address the mandates of the NDAA 
to better enable the United States to remain the provider of 
choice to our foreign partners, providing them with the full 
spectrum of required capabilities to train for, maintain, and 
sustain the products they receive through the FMS program. We 
are also developing options to provide more transparency in the 
process as it occurs to our FMS customers. The transparency 
initiative was started to facilitate the improvement of the 
timelines and the quality in the execution of FMS, through 
greater transparency and communication, with regard to each 
step of the process.
    As I have noted, DSCA plays a key role, but we are only one 
element of the broader U.S. Government system for FMS. My 
intent today is to comment specifically on DSCA's contribution 
to this mission both in terms of the programs we execute and 
the initiatives we are championing, and at the same time 
demonstrate the linkages and close coordination between us and 
the larger FMS enterprise.
    Distinguished committee members, I want to thank you again 
for the opportunity to sit before you today, and I look forward 
to your questions.
    [The prepared statement of Admiral Rixey follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
        
                              ----------                              

    Mr. Poe. Thank you, Admiral.
    The Chair is going to recognize members in the order that 
they appeared. And I will reserve my questions till last.
    So I will recognize the--without objection, I will 
recognize the gentleman from Florida, Mr. Mast, for 5 minutes 
of questions.
    Mr. Mast. Thank you, Chairman.
    Thank you, Ambassador and Admiral, for your time and your 
testimony. I want to get into a couple of quick questions on 
the process for FMS, as I am sure you are well aware that is 
what a lot of people want to talk about.
    Can you outline for me a little bit just how the process 
can be made a little bit more streamlined when we are talking 
about just one U.S. competitor that is, you know, in there? Is 
there a place that that can be streamlined when there is just 
one U.S. contractor competing?
    Admiral Rixey. Well, first of all, in my submitted 
statement, I have two slides. The one is a Gantt chart. It 
really is a graphical depiction of the Arms Export Control Act.
    Mr. Poe. Is your microphone on, Admiral?
    Admiral Rixey. What is that?
    Mr. Poe. Microphone.
    Admiral Rixey. I am sorry. I submitted two slides with my 
statement. The first is a graphical representation of the Arms 
Export Control Act. It is really nothing more than a Gantt 
chart, critical path. There is a grid on it so that if we ever 
discuss FMS systems or FMS programs, we can be very specific as 
to where this program resides and how a case is particularly 
managing and going through a system.
    The second slide that I provided you is the full-spectrum 
capability slide. At times throughout this testimony, I will be 
referring back to those slides to explain the process in a 
little better way.
    As far as if a country requests a FMS case that goes sole 
sourced, we will honor that request. And so we will process 
that through the service acquisition community that will 
execute that case. I think that is your question. If it is 
requested by a partner, we will honor that sole-source 
commitment.
    Mr. Mast. So you don't see a place where we are getting in 
the way there?
    Admiral Rixey. No, not at all.
    Mr. Mast. Can you outline for me a little bit, you know, 
what would be the biggest concerns when you are looking to 
determine whether something is an inappropriate sale? What 
would be some of the examples? Or can you give me some specific 
examples of when you have identified that--you know, you are 
denying a sale because you thought it was inappropriate? Help 
me understand that process.
    Admiral Rixey. So, again, on that Gantt chart, you will see 
that it is a graphical representation of the Arms Export 
Control Act. There are three deliberate conversations that we 
have to have. It is based on the Arms Export Control Act and, 
actually, PPD-27. PPD-27--Presidential Policy Decision--has 13 
considerations that we must make before we make a sale. I have 
thinned that down to three.
    The first is, is it of mutual benefit? The first 
conversation we have is is it of mutual benefit. So we usually 
ask that question of our combatant commanders and the country 
team themselves.
    The second deliberate conversation that we have is the 
technology. Will the technology be protected? Will they 
preserve it or will they have the agreements in place so that 
they will protect it?
    And, third, the third deliberate conversation is foreign 
policy. For example, human rights or adherence to international 
norms.
    So those are the three conversations we have. COCOM on 
mutual benefit in our industry--I am sorry--our country team in 
the Embassy, the DTSA under Beth McCormick, who leads that 
particular tech transfer and tech security foreign disclosure 
review, and then, of course, we work with State in terms of a 
foreign policy review.
    Mr. Mast. And maybe this follow-on will go more to State. 
Maybe it will stick with you, Admiral, but----
    Admiral Rixey. Sure.
    Mr. Mast [continuing]. How much are you consulting with 
other intelligence agencies when you are making these 
determinations as a part of that decision-making process?
    Admiral Rixey. The whole interagency process is engaged 
when we go through that deliberate conversation.
    Mr. Mast. Okay. You have answered all my questions. I 
appreciate it. It gave me a much better picture of what you are 
doing there. Thank you.
    I yield back.
    Mr. Poe. I thank the gentleman from Florida.
    I recognize the ranking member of the committee, Mr. 
Keating, from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you for your testimony. I couldn't agree more with 
both of the witnesses in their opening statements that this is 
indeed a major foreign policy decision. Compared to some of the 
other policy decisions we make as a country, this can indeed 
have longer lasting consequences in many instances and have 
just as many intended and unintended results. So I agree 
wholeheartedly that these decisions can't be made in a vacuum. 
And you really did a great job laying out the procedure. So I 
am going to just put out two questions. And I know it will take 
up more of the time. But I like to give witnesses the ability, 
between both of you, to answer it.
    And the first one is more specific, the Saudi commitments 
that were made. Now, if you can just articulate what some of 
the new commitments are and how they are different from the 
prior promises that were, frankly, reneged upon by the king to 
our country and, indeed, how they might entail changes in how 
they deal with civilian casualties, and maybe giving more 
assurances to coalition partners, follow those same policies 
and commitments as their coalition partners.
    And then the second one, if you could, is the fact that--I 
said it is not done in a vacuum. What about our competitors, 
the other countries that are, you know, selling weapons to 
countries? You know, we know Russia, China, France, and I think 
interoperability. You laid all the reasons out why we should be 
where we are. But if you want to comment on the concerns you 
might have about how they do this business.
    So those are the two issues, the Saudi commitments and just 
your own personal comments on how the other countries pursue 
this, and some of the concerns you have about the way they go 
about this as well.
    Ambassador Kaidanow. Thank you, Congressman. I think we had 
an opportunity, happily, earlier this week to brief some of you 
on this set of issues related to Saudi Arabia. So I got into a 
little bit more detail there than perhaps I can even here. But 
I will say this. We clearly believe that there is an interest 
in providing Saudi Arabia, but also some of the other countries 
in the Gulf, with what they need in order to carry out what we 
believe is both in our interests and theirs, and that is to 
counter some very serious threats posed by Iran and some other 
salient threats that we see in the Gulf region.
    The President went not that long ago, obviously. We 
concluded with the Saudis--and the admiral can speak to this in 
greater detail even than I can--a large package of arms sales. 
The rationale behind that, in most instances is, in fact, to 
bolster the Saudi capabilities to do the kinds of things we 
have asked them to do. The buckets, if you will, or the 
elements of that package, are largely in maritime security, for 
example, border security, the kinds of things that, arguably, 
they really do need, and they need to improve by way of 
capability in order to push back on the threats that they have.
    It is a large package, obviously. It will have other 
impacts that we can speak about. But, you know, the concerns 
that people feel about Saudi and the Saudi-led coalition's 
performance in Yemen are real. We share some of those concerns. 
We have shared that with the Saudi Government over time, and 
they have given us commitments that now, actually, I think have 
been in the public domain, but a number of commitments that we 
consider to be serious and credible, all of which are 
important. For example, adherence to the laws of armed 
conflict, vetting of targets. I mean----
    Mr. Keating. Yeah. We were also assured in personal 
meetings from the foreign minister of those changes as well. So 
I hate to interrupt. We are running out of time.
    Ambassador Kaidanow. No, please.
    Mr. Keating. But if either of you want to comment on the 
second question. You know, what are your concerns about the way 
some of these other countries do their business, you know, in 
terms of our own security here and the way they do it? I 
suspect they don't do it in as thoughtful a way as our process. 
But if you could take a little time--Mr. Chairman--to just do 
that, to enlighten us on what the other countries are doing.
    Ambassador Kaidanow. We obviously have those concerns, sir. 
And I think we try very hard to both monitor and also, then, to 
hold accountable the countries that violate those 
understandings. We belong to a number of different 
nonproliferation regimes. Missile Control Technology Regime, 
for example, is one of those. The idea is, again, to try and 
hold them to certain standards, and when they are not holding 
to those standards, hold them accountable.
    I will say that, again, the American weapons systems remain 
the weapons systems of choice all over the world. We want to 
keep it that way. That is why we are trying to balance the 
technology security aspect of what we do against the ability of 
our defense industry, and the companies to do their business 
overseas, and to be as effective as they can be in as wide an 
array of countries----
    Mr. Keating. Yeah. And I think the interoperability issue 
is clearly an issue too because----
    Ambassador Kaidanow. Yeah.
    Mr. Keating [continuing]. Once they get these sales, and we 
don't, the tendency will be other sales will follow that, and 
these countries will have undue influences----
    Ambassador Kaidanow. That is right.
    Mr. Keating [continuing]. On areas we don't want them to 
have.
    Ambassador Kaidanow. Precisely.
    Mr. Keating. All right. Well, thank you.
    I yield back, Mr. Chair.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair recognizes the gentleman from California, Mr. 
Rohrabacher, for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me ask some specific questions about maybe some 
specific deals or policies. Egypt had a policy in terms of our 
sales of weapons to Egypt. It used to be where they would 
spend--they would put 20 percent down on a piece of military 
equipment, and then every year after that they would pay 20 
percent. So after 5 years, they would pay for it, but they 
would be able to use that weapon system in the meantime. Egypt, 
as most of us know, on the front lines of the battle against 
radical Islamic terrorism, they are, themselves, targets. And I 
would say that if Egypt falls to a radical regime, the entire 
Middle East will fall.
    Now, have we resumed the policy that we had before, instead 
of--I understand somewhere along the line, a few years ago, it 
became cash on the barrelhead. You have got to pay for that 
weapons system, all of it, on delivery. Which, of course, here 
we have someone on the front lines, the actual point of the 
spear of helping us fight radical Islam, and we are changing 
our policies to make it more difficult for them to have a 
weapons system. Has that been reversed yet or is that policy 
still in place?
    Admiral Rixey. Well, I think what you are referring to is 
cash flow finance.
    Mr. Rohrabacher. Yes.
    Admiral Rixey. But that is an appropriated account under 
foreign military finance. So it is not national funds from 
Egypt. So it is the State fund that we would provide to Egypt. 
We used to allow them cash flow finance, which means if we had 
$1.3 billion coming in a particular year, they could initiate a 
procurement of significant size because we knew the 1.3 was 
going to come next year and the following year. So they would 
have 3 to 4, 5 years of buying power.
    Mr. Rohrabacher. Right.
    Admiral Rixey. That was removed. So now that we are just--
we will just take--we will not execute a case until the cash is 
there as financed, or cash on the barrelhead, as you said. That 
policy is still in place.
    Mr. Rohrabacher. So we changed the policy to make it more 
difficult for Egypt to obtain a weapons system.
    Admiral Rixey. We changed the policy.
    Mr. Rohrabacher. Okay. Let me just note that, Mr. Chairman, 
I hope we all are taking note that at a time when radical 
Islamists are murdering people all over the world, bombs are 
going off all over Egypt, I might say, which is on the front 
lines, we change the policy to make it more difficult for Egypt 
to have the weapons it needed in this struggle.
    Let me ask you about Pakistan. I remember that a few years 
ago, when our brave military went in and took out Osama bin 
Laden, that there was a--that they had to go through all kinds 
of machinations on what type of equipment, where to go. They 
took a route to go get Osama bin Laden that was much more 
dangerous, because they were afraid that they might be shot 
down by the Pakistani Air Force for going into the airspace of 
Pakistan.
    What kind of planes would they have been shot down by? 
Would they have been shot down by American airplanes?
    Ambassador Kaidanow. Sir, I mean, it is a little difficult 
for me to answer what is largely a hypothetical question.
    I think what you are asking, though, is, you know, what 
kind of a discussion and what kind of relationship we have with 
Pakistan and ongoing. Is that what you are----
    Mr. Rohrabacher. I am alluding to the fact that we have our 
own military understanding that we can't trust them not to 
shoot down our own people, and we have ended up giving them 
modern weapon systems, and we continue to do so. Now, that is 
not your fault. You are running a system and being directed by 
political decisions.
    But I would suggest, Mr. Chairman, that we need to go on 
the record here, on this part of our Government, to say that we 
are not going to be providing weapons to countries like 
Pakistan that we are afraid will shoot down our own people. And 
we know they are engaged in terrorism. We know what they have 
done now. They still hold Dr. Afridi, the man who helped us 
finger Osama bin Laden, the man who was responsible for 
slaughtering 3,000 Americans. They still hold him in a dungeon.
    Mr. Chairman, we should be facilitating our support and our 
weapons systems to countries like Egypt that are fighting this 
threat to Western civilization, to all of civilization. And we 
should make it more difficult, not less difficult, for 
countries like Pakistan to get their hands on American weapons.
    Thank you very much, Mr. Chairman.
    Mr. Poe. I thank the gentleman from California.
    The Chair recognizes another member from California, the 
gentlelady, Mrs. Torres, for her questions.
    Mrs. Torres. Thank you so much, Mr. Chairman. Just 2 hours 
north of my colleague on the other side.
    So thank you, both of you, for being here.
    Ambassador Kaidanow, I want to go back to the question that 
you were answering earlier as it relates to Saudi Arabia.
    So President Trump recently announced that we had reached a 
$110 billion arm deal with Saudi Arabia. Now, I know that there 
is some questions about, you know, is that really $110 billion? 
So we are not going to go through that today. But what are the 
conditions that you mention? What are those conditions that 
were placed on those weapons? You said that they--it was on 
Open Source. I have not seen it, so I would like some 
information.
    Ambassador Kaidanow. I think some of it has been reported 
in the press. In fact, I think this morning there was a piece 
on the issue.
    I would not call them conditions, just to be clear. I want 
to sort of, again, give the understanding of--this is a 
dialogue that we have been having with the Saudi Government, 
and it is an important dialogue. I think they, themselves, 
recognize that some of the elements of their performance in 
Yemen have been problematic. They would like to improve those. 
We need to help them improve that performance.
    The way, again, that we would hope to do that, one of the 
things that we recently notified to Congress is a $750 million 
training package for their air force. The idea behind that is 
very much to provide training on the law of armed conflict, to 
give them experience with targeting and vetting of targets, the 
kinds of things that, again, arguably, any military, but 
certainly in a combat situation, you would want to have them be 
more proficient at.
    Mrs. Torres. More proficient at targeting so they don't 
have so many civilian casualties?
    Ambassador Kaidanow. That's correct. Specifically to try 
and avoid civilian casualties. And that is important, you know, 
from our standpoint, from the U.S. Government standpoint, from 
theirs, I think, as well. And, increasingly, they acknowledge 
that.
    So, again, I don't want to call it conditions. What I want 
to say is they have made commitments. I think those commitments 
are important. And the idea here is, again, to help them do 
some of that, because, in our view, it is better to engage and 
then to give them that assistance than it is to simply stand 
back and--because, you know, the situation in Yemen is very, 
very challenging. The Saudis face a number of threats on their 
border with Yemen. They also face a number of threats that 
emanate from the Houthis who, you know, clearly are being 
empowered by----
    Mrs. Torres. You also talked about monitoring and holding 
them accountable. So I want to ask you about the end-use 
monitoring. What is the process for making sure that arms don't 
end up in the wrong hands? Do you have the necessary resources, 
database, and the personnel to carry out effective end-use 
monitoring?
    Ambassador Kaidanow. Thank you for the question. The State 
Department has a program that it utilizes for end-use 
monitoring, but that is also amplified or supplemented by other 
programs at DOD and so forth. So it is not simply a function of 
what the State Department does.
    We have a Blue Lantern program, it is called, that we 
utilize to ensure that there are ample checks, especially on 
the most sensitive weapon systems that we provide to some of 
our partners. We utilize some of our folks overseas in our 
Embassies to do some of those checking. Sometimes it is via the 
defense----
    Mrs. Torres. We have very limited time. Maybe we can follow 
up if there is some database----
    Ambassador Kaidanow. Absolutely.
    Mrs. Torres [continuing]. Somewhere were you have--you 
know, where those weapons have fallen into the wrong hands, 
what have you done to either get them back or destroy them.
    Let's talk about Mexico. I have been very concerned about 
the illegal trafficking of the arms into Mexico. A lot of these 
arms are ending up in the wrong hands, gun traffickers and 
violent criminals, narcotraffickers. Given the widespread 
problems with corruption in Mexico, should we also be concerned 
about what is happening with guns that we sell into Mexico? How 
do we know we are selling to the right people?
    Ambassador Kaidanow. Well, again, and without getting into 
it too much here and offering up a specific briefing if you 
would like it on some of those issues. I think we do--we look 
very carefully at the end users who receive some of the weapons 
that we approve for sale.
    Mrs. Torres. Specifically, the corrupt police and military 
units.
    Ambassador Kaidanow. We look at the end-use recipients in 
any arms sale that we do, especially if it comes through the 
State Department. And, you know, there are some sales, 
obviously, that will eventually move again outside of our 
realm. But to the extent that it comes through because it is of 
a quality or a quantity that moves through the State Department 
for approval, we absolutely look to----
    Mrs. Torres. What happens when we find out, as in the state 
of Guerrero, that these weapons are ending up in the hands of 
narcotraffickers? What happens?
    Ambassador Kaidanow. Congresswoman, I would defer you 
probably to a more detailed briefing on all of the 
particularities of what we do with regard to Mexico, if that's 
all right, because I think there is a lot to talk about that.
    Mrs. Torres. I ran out of time, so thank you.
    Ambassador Kaidanow. Sure.
    Mr. Poe. I thank the gentlelady from California and for her 
line of questioning.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Ambassador, Admiral, great to see you.
    Ambassador, I want to continue the conversation that we 
had, I think it was last week, regarding the Saudi Arabian arms 
deal and the other side of the ledger, so to speak. So it might 
be a little bit off topic, but I think it is instructional.
    So the context is that I am concerned about how much the 
export of Wahhabism was part of the deal, as you will recall. 
And so just to set the context, by 2013, 75 percent of North 
American Islamic centers relied on Wahhabi preachers who 
promote anti-Western ideas in person and online through sermons 
and through Saudi-produced literature. We think, since 1979, 
Saudi Arabia has engaged in a fairly persistent campaign of 
exporting that ideology throughout the world, spending about $4 
billion annually on mosque, madrassas, preachers, students, and 
textbooks. I am interested in their sincerity, I guess, and how 
we monitor--what our metrics are in monitoring their efficacy 
adhering to their commitments. And so to further set the 
context, despite assurances that it would reform its 
educational curriculum by 2008--so this goes back nearly a 
decade. Let me just read some excerpts of current textbooks.
    A 12th grade textbook professes that treachery, betrayal, 
and the denunciation of covenants are among the attributes of 
Jews. An 11th grade textbook teaches that cosmopolitan 
universities in the Middle East, such as the American 
universities in Beirut and Cairo, are examples of a modern-day 
crusade by Christians against Islam. And a 10th grade textbook 
on jurisprudence suggests that the most important debate about 
homosexuals is how best to execute them, whereas ISIS itself 
has used these textbooks issued by Saudi Arabia, their ministry 
of education, in its schools that it controls in Iraq and 
Syria.
    To the best of your ability, in this setting, can you tell 
me who in the department--is there one person or is there a 
portion of the department, is there a crew that is going to 
monitor the efficacy of their pledge, so to speak? I 
understand, in talking to the Secretary yesterday, that they 
have pledged to change the textbooks and supply their 
organizations with those textbooks and also pull back current 
textbooks. That is what I understand, right, in this new global 
center for combating extremist ideology.
    But I want to know, because we have been promised before, 
and we are tired of helping this sometimes ally when they don't 
seem to be really doing things in what is the United States's 
best interest, and if we are going to sell them things that 
they want and that we want them to have, they don't want to 
uphold their end of the deal. But, unfortunately, while I love 
the Reagan doctrine of trust but verify, in this instance, I 
prefer verify and then trust.
    So what can you tell me about who is going to be monitoring 
that and how we are going to gauge their efficacy and what the 
penalties are for failure?
    Ambassador Kaidanow. Sir, thanks for the question. I will 
say that, in the first instance--and, of course, these issues 
that you have mentioned I think are of concern to us just like 
they are of concern to you. But I will tell you that, you know, 
in almost every instance, the people on the ground that we have 
there are the ones that are the closest to this, and they are 
the ones that monitor it. So our folks in our Embassy there are 
the ones that are responsible for looking at, you know, whether 
the Saudis live up to the commitments, again, the promises that 
they have made.
    With regard to, you know, the State Department at large, we 
have a Bureau of Eurasian Affairs that, you know, again, 
concerns itself with these issues specifically. We also have 
public affairs people who look at this and the whole question 
of the promulgation of extremism through social media, through 
other means. These are the kinds of things that we preoccupy 
ourselves.
    Mr. Perry. Do we literally have someone in Saudi Arabia 
that is going to be at the receiving dock checking in X amount 
or tons or skids, pallets, what have you, of old textbooks to 
prove that they either came back, or do we have someone in the 
United States that is working with the Department of State to 
visit these places where the textbooks were issued to see the 
new ones come and the old ones go? Are we taking the Saudis' 
word for it? Because, apparently, we did since 2008. And you 
can see what we have gotten, which is very little. As a matter 
of fact, it has gone the other direction, in my opinion.
    How are we verifying it specifically? And if you don't know 
and you got to get back to me later, I accept that. But I want 
to know the answer to that question.
    Ambassador Kaidanow. Understood, sir. And, no, I could not 
tell you sitting here, you know, whether we have an individual 
who is doing something like that. But I am happy to get back to 
you with an answer.
    Mr. Perry. All right. I think that we are all interested in 
that answer, and I think it is important to our national 
security in moving forward with this deal, as well within the 
answer, with the chairman's indulgence, the consequences to the 
adherence of this agreement for failure to live up to their 
commitment. Thank you.
    Mr. Poe. I thank the gentleman from Pennsylvania for his 
line of questioning.
    Without objection, we have with us also Mr. Lieu from 
California, not a member of the subcommittee but a member of 
Foreign Affairs. The Chair will recognize him for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chairman, ranking member, for 
letting me participate in this hearing. And thank you, 
Ambassador Kaidanow and Admiral Rixey, for your public service.
    We have had prior meetings on Saudi Arabia, so I would like 
to ask some questions for the record. As you know, the U.S. has 
been assisting Saudi Arabia in its war in Yemen. I don't have a 
problem with helping our ally Saudi Arabia, but many Members of 
Congress, on a bipartisan, bicameral basis, do have a 
significant problem when the Saudi-led military coalition is 
committing war crimes in Yemen.
    I served in active duty in the Air Force. I am aware that, 
in the fog of war, you can make mistakes. Maybe three, four, 
five errant air strikes. I get that. But we are talking about 
dozens and dozens and dozens of reports from Human Rights 
Watch, Amnesty International, the U.N. have documented over 70 
unlawful air strikes by the Saudi-led coalition. And this is as 
of last year. Who knows what it has done since then. And these 
are air strikes nowhere near military targets.
    It freaked out our State Department so much that last year 
our State Department's lawyers initiated a review to see if 
U.S. personnel or others would be liable for aiding and 
abetting war crimes. The State Department stopped a sale of 
precision-guided munitions. The State Department this year has 
reversed.
    So I would like to know what conditions have changed from, 
basically, last November to now that caused that reversal.
    Ambassador Kaidanow. As you pointed out, Congressman, I 
think this has been an ongoing evaluation. In other words--and 
as I said at the outset of my testimony, it is always a balance 
between the national security interest that we face and our 
allies face as against other considerations, many of which you 
just laid out, I think, very coherently.
    With respect to Saudi and the coalition-led effort in 
Yemen, I think, again, the Saudis themselves have recognized 
that some of the aspects of how they have pursued that campaign 
are problematic. I think over time, their awareness of that has 
grown. I think their willingness and their ability to address 
some of those issues has grown. We have seen that both in the 
commitments they are willing to make to us as well as, again, 
in their willingness to accept some of the assistance that we 
can provide in order to help them do the things that, arguably, 
would improve their performance.
    Again, as I said, they need to fully, and they have, commit 
to following the laws of armed conflict. They need to improve 
their vetting process for targeting and doing the kinds of 
things that we all know that need to be done, especially those 
of us who have done this kind of work previously. They need to 
be much more careful with their rules of engagement. These are 
the kinds of things they have to do.
    Mr. Lieu. Have the Saudis made those commitments to the 
United States in writing?
    Ambassador Kaidanow. They have made commitments to us that 
we--again, that we have outlined for you, and we will----
    Mr. Lieu. Could you give the committee the commitments they 
have made?
    Ambassador Kaidanow. We can definitely walk you through 
those commitments, absolutely.
    Mr. Lieu. Okay. Thank you.
    I would like to now shift to Qatar. As you know, last week, 
the President of the United States, through a series of tweets, 
accused Qatar of funding terrorism. The President essentially 
supported the blockade of Qatar led by Saudi Arabia and other 
Gulf nations. I am also reading reports that the United States 
just agreed to sell Qatar $12 billion worth of weapons, 
airplanes.
    Is that true that we are selling them $12 billion worth of 
fighter jets?
    Ambassador Kaidanow. The fighter jet sale has been an 
ongoing deliberation and consideration for quite a while. Yes, 
the contract has just been signed for the sale.
    Mr. Lieu. And I don't mean to be facetious with this, but 
does the President know that?
    Ambassador Kaidanow. I believe so.
    Mr. Lieu. Okay. How do you square that sale, what the 
President has been saying about Qatar, since you said arm sales 
are an element of foreign policy?
    Ambassador Kaidanow. Absolutely. Yeah. Again, this goes 
back to the consideration of the wider array of foreign policy 
issues as regards the Gulf more broadly. It is not simply a 
question of the things that we concern ourselves with with 
regard to the extremism and so forth. Qatar needs to do some 
more things. The President, Secretary has made that clear. And 
we have made that clear to the Qataris. By the same token, the 
Qataris and the Gulf countries, as a whole, face certain 
threats from Iran, from other sources, but primarily from Iran, 
that they need to address through means that we can assist them 
with. These fighter sales are designed to address those kinds 
of threats.
    So I think you can easily, you know, understand why we have 
to do multiple things at the same time.
    Mr. Lieu. So thank you. So I don't take a position on this, 
because I need to find out more about it, my only point is that 
it is really confusing to world leaders, the Members of 
Congress, when the Trump administration does two exactly 
opposite things. And it is my hope that, as the administration 
grows and learns, that the administration stops doing that.
    And with that, I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes another gentleman from California, 
Colonel Cook, for 5 minutes.
    Mr. Cook. Thank you very much, Mr. Chair.
    Ambassador, it is good to see you again. You are spending 
far too much time here. This very, very complicated business 
that we are talking about. You know, I am a historian and, go 
back, you read about Roosevelt and Churchill and who they were 
supporting in World War II. Sometimes the lines between enemy 
and friend was very, very complicated, how you could support 
the Soviets, some of the things that they did under the Stalin 
regime, and yet we are saying how much--you can go on and on 
and on. And I think a lot of these things weigh into the 
equation. Who is your enemy this week and--very, very 
complicated.
    I do want to talk about the NATO arena and the dependence 
of many of our allies, Eastern European, quite frankly, on 
Soviet style equipment, both armor and air, that we have not 
weaned them off--maybe that is a bad phrase. But because of 
parts, because of systems, they still have to go back to the 
new Russia for those things that they had for years. And until 
they become a total member of NATO, in terms of our military 
equipment and everything else, I think it diminishes their 
capability as a true ally.
    And if you could address that question right now, because 
it doesn't seem like a big priority, and yet countries there, 
they have been with us and everything else. But we expect them 
to come to the fight, when and if the Russians come across, 
such as the Rand study that was envisioned.
    Ambassador Kaidanow. Right. Thank you, sir, for the 
question. I would, first of all, just reassert our deep 
commitment to our NATO partners, as well as to our partners 
that are not necessarily members of the NATO but who are allies 
of ours and friends that we work with extensively. And in a 
number of cases, we obviously provide either assistance to 
them, grant assistance sometimes in that form, or in other 
forms.
    Intraoperability, as you have indicated, is a huge, big 
issue for us. I highlighted it as one of the factors, you know, 
that we take into consideration when we make these decisions. I 
can't emphasize enough how much work we do with a number of our 
European partners, both within NATO and outside NATO, to 
ensure, again, that what you are talking about precisely takes 
place, that their weapon systems are modernized, that they are 
interoperable with ours, and to the extent that, again, that we 
need to provide assistance for them to do it, that we give them 
that.
    Mr. Cook. Yeah. I think sometimes when we criticize our 
NATO partners for not meeting their 2 percent, I think if we 
are going to put all this pressure on them, and the fact that 
we are going to come, you know, to their aid if they are 
attacked, I think we have got to have--NATO standards applies 
to foreign military sales, at least my perspective. Other 
countries, obviously Saudi Arabia, some of the others, it gets 
dicey because of some of the political considerations. Egypt, I 
thought were a bit heavy-handed. I know that still talking 
about the Morsi government, and everything like that, and the 
change by el-Sisi. But, of course, they did the same thing. 
They went right back to buying Russian military equipment 
because of what happened.
    And I think, as you rightly pointed out, we have to take 
that variable into consideration. And we can argue all day 
about Saudi Arabia and Egypt and everything else. But NATO, we 
cannot criticize them. If they are having a tough time meeting 
the 2 percent, then we are not going to ensure that we do 
something to make sure that that is streamlined.
    Admiral, would you comment on the short time I have left?
    Admiral Rixey. Well, we will honor any letter of request 
for capability. So I am seeing on my travels a desire to move 
away from Russian equipment and into NATO standard-type 
equipment. So we are prepared to execute if requested.
    Mr. Cook. Okay. I yield back. Thank you.
    Mr. Poe. I thank the gentleman from California, Colonel 
Cook.
    The Chair recognizes the gentleman from Virginia, Mr. 
Garrett, for his questions.
    Mr. Garrett. Thank you, Mr. Chairman, and thank the members 
of the panel for being here.
    Generally, Mr. Chairman, when I ask a series of questions, 
there is an answer that I am driving at; that is not case 
today.
    Understanding the importance of what you all do, of what 
FMS does, and what the DSCA does, our office publicly stated a 
policy that we think that this Nation should adhere to very 
early after being elected, and that is first to seek peace and 
stability in the world and, second, not to arm people who might 
later find themselves using those weapons against the United 
States or our allies.
    There are literally dozens and dozens of nations, if you 
cover the gamut from main battle tanks to small arms, to whom 
we supply arms. And I don't necessarily object to that on its 
face. In fact, I think, in many instances, it is important to 
do. But I would ask you both--and this is a tough question--if 
you were forced to sort of predict a horrible worst-case 
scenario where U.S. weaponry was turned on U.S. forces or our 
allies, in what nation that we currently sell weapons to might 
that occur?
    Because the answer can't be, oh, it could never happen. I 
will tell you--and I know I am burning my own time here. I grew 
up watching terror movements, watching government upheaval 
where the foreign fighters were armed with Soviet-Style 
weaponry. And it has galled me for the last decade as we see 
ISIS and AQAP and other elements in Humvees like the one I 
drove in, with rifles like the one I carried, firing weapon 
systems like the ones that our soldiers operate. It strikes me 
as a bad outcome.
    So where might we see that again? And then I will give you 
a redemption clause, and how might we avoid that?
    Ambassador Kaidanow. I think it is a really important 
question, frankly. And I also think that it is, you know, a 
highly sensitive question. In other words, you know, how do you 
gauge that? You are asking, you know, a very difficult question 
to kind of get at.
    I would say, at least when I think about it, and given the 
time that I have been doing this job, I worry perhaps a little 
bit less about some of the existing technology and what we have 
already provided. What I think about is the cutting-edge 
technology. The things that arguably, anyway, we have to be 
super careful about when we provide to other nations. And these 
are really open questions. I mean, we have to sit there and 
really think about, do we provide certain kinds of technology 
to certain partners, given some of our concerns, given the 
question as to whether those technologies will be adequately 
protected? And we don't take that lightly. I can just tell 
you----
    Mr. Garrett. I am going to interrupt, and I am not doing it 
to be rude.
    Ambassador Kaidanow. No, no.
    Mr. Garrett. It is a real hard question, given the 
professional nature of your individual responsibilities. And I 
don't want to get anybody in trouble here.
    There are two ways this could happen, and maybe this will 
help you. It could happen because the nation state to whom we 
sold the weapons turns on us. Or it could happen, as it did in 
Iraq, because the nation state to whom we provided the weapons 
with the best of intentions abandoned those weapons and they 
fell into the hands of people who sought to do us and our 
allies harm.
    Ambassador Kaidanow. Yes.
    Mr. Garrett. Where might that be a possibility?
    Ambassador Kaidanow. I mean, you have highlighted places 
where, you know, in theory, that is possible. And there are 
places across the globe where we have, again, provided things, 
and you cannot always predict what will happen with regard to a 
government's stability or whether, you know, the next 
government will somehow find it in their interest, you know, to 
somehow do something against our interest.
    But, again, I worry a little bit less about that with 
respect to the things already provided. I am now looking 
forward at the question of, you know, emerging technologies, 
how do we control for some of that in a very important 
environment in which we want American companies to have the 
ability to sell, and yet we also want to protect those 
technologies and not have them turned against our own forces. 
These are salient questions.
    Mr. Garrett. Admiral Rixey?
    Admiral Rixey. Well, I certainly don't want to speculate in 
this open forum. So if you will allow me, I will take that back 
to the Pentagon and get you a classified brief or something of 
that nature.
    Mr. Garrett. I would be delighted. I anticipate that you 
will proactively reach out to my office. I look forward to it. 
Thank you.
    I would yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from New York, Mr. 
Zeldin.
    Mr. Zeldin. Well, thank you, Mr. Chair, and thank you to 
both of our witnesses for being here.
    Ambassador, just for way of background, how long have you 
been in your current position, just so I know?
    Ambassador Kaidanow. I have been in the principal deputy 
slot since February of last year. So February 2016.
    Mr. Zeldin. Okay. And what were you doing just before that?
    Ambassador Kaidanow. I was the State Department coordinator 
for counterterrorism.
    Mr. Zeldin. Okay. Were you involved in all--because I just 
have some questions about the FMS-related transaction between 
the United States and Iran. Were you involved in that?
    Ambassador Kaidanow. No.
    Mr. Zeldin. Would you be able to answer any questions about 
that?
    Ambassador Kaidanow. Probably not in this setting.
    Mr. Zeldin. Well, let me try.
    Ambassador Kaidanow. Sure.
    Mr. Zeldin. When was the United States' claim against 
Iran--our claims against Iran--I am sorry.
    When did the United States stop disputing our claims 
against Iran?
    Ambassador Kaidanow. Again, sir, just because this--I think 
this addresses a broader set of issues than I am necessarily 
responsible for in my portfolio at the State Department. I 
would offer, again, a briefing, if you would like it, on those 
specific issues.
    Mr. Zeldin. Okay. For decades, the United States was 
disputing that we owed Iran money for the sale. Do you know 
when we stopped disputing whether we owed that money?
    Ambassador Kaidanow. Sir, I don't have the history of all 
that in front of me right this minute. So, no, I would prefer 
to get back to you on the specifics.
    Mr. Zeldin. Okay. Do you know why we paid in cash?
    Ambassador Kaidanow. Again, this goes a little bit beyond 
my portfolio, so I really would prefer to give you a more 
detailed answer.
    Mr. Zeldin. You would be able to answer these questions, 
though, in another setting?
    Ambassador Kaidanow. We will, obviously, provide you any 
information we can.
    Mr. Zeldin. And you would be able to bring someone to that 
setting who would be able to answer what you might not be able 
to answer?
    Ambassador Kaidanow. We will do that.
    Mr. Zeldin. Do you know why the payment was made at the 
same time as the release of the American hostages?
    Ambassador Kaidanow. Sir, I can't answer, I think, any 
differently than I already have.
    Mr. Zeldin. All right. Just, I guess, procedurally, is 
there anything the way we handled this entire exchange over the 
course of decades that you think the United States can learn a 
lesson and handle it better going forward?
    Ambassador Kaidanow. Again, given the fact that, you know, 
we are not addressing in great detail the way that the issues 
unfolded, I think it would be probably better to discuss that 
in a briefing.
    Mr. Zeldin. There was a lot of concern here in Congress 
over, you know, many aspects of that exchange, historically 
speaking. When it happened, Iran was--they were canceling 
orders, and we ended up--the United States had parts that we 
were in the process of putting together. Iran takes over our 
Embassy. And everything that happens there at that point in 
time, you can make an argument of whether or not we would have 
owed them anything then.
    But then there are these disputes, over the course of the 
years ahead, to be settled out in court or out of court, both 
the United States against Iran and Iran against the United 
States. And we were disputing whether or not we had owed this 
money to Iran. Yet what appears to me as a Member of Congress, 
and I know for many of my colleagues and for much of the 
American public, it seemed a bit odd that a position that the 
United States had for decades, that out of nowhere, we see the 
United States making a payment for the full principal amount, a 
generous interest amount, and it had to be delivered on a cash 
pallet to the Iranians at the same exact time as the Iranians 
releasing American prisoners. And it was the position of the 
administration that that was a coincidence and that one thing 
had absolutely nothing to do with the other. And I would be 
really interested in getting filled in on, if there is another, 
you know, 99 percent of the story that we are not familiar 
with, I would loved to be briefed up on it.
    But without that information, I find it incredibly hard to 
believe that that was anything other than a ransom payment. And 
I find it hard to believe that I would be able to take the 
position that it was a coincidence. But also as it relates to, 
you know, our policies--lessons learned, our policies going 
forward--I don't know whether or not we even had owed the 
money. And that was a whole other dispute that was consistent--
I say my position was consistent with U.S. position for 
decades.
    So I certainly would appreciate that, Chairman, if we would 
have that opportunity to fill in the gaps that still exist.
    I yield back.
    Mr. Poe. I appreciate the questions from the gentleman from 
New York and the gentleman from Virginia. I intend to figure 
out a way that we can have a classified briefing from you all 
on the issues raised by the gentleman from New York and 
Virginia and the gentleman from California as well.
    I recognize myself for a line of questions.
    We are all aware of the Turkish security detail that 
assaulted peaceful protesters on American soil and tried to 
prevent them from exercising constitutional rights of the right 
to assemble and to free speech. And I am still mad about that. 
I think other Members of Congress are as well.
    The U.S. has a plan to sell small arms to security details 
like the Turkish goons that assaulted Americans. The chairman 
has written a letter to Secretary Tillerson asking to stop that 
sale until this is resolved about the assault. Where are we on 
that, Ambassador?
    Ambassador Kaidanow. Sir, thank you for the question. I 
think you have expressed concerns. We have some similar 
concerns that we expressed directly to our Turkish friends and 
colleagues. But this sale is one that obviously is going to 
have to be looked at and reviewed. It is still in the process 
of review, given the fact that now the law enforcement process 
is in play. Rather than sort of give you an end state, I would 
like to just come back to you soon and give you an update on 
where we are with it. But it is still in review. It has not----
    Mr. Poe. You understand, as oversight on this issue, 
members of the Foreign Affairs Committee, through the chairman, 
have said suspend those sales till this is resolved and the 
folks that committed these crimes against Americans on American 
soil is resolved. I think that is atrocious that that would 
ever occur. So that is our position. And we hope that you will 
suspend those sales until this is done.
    This whole concept of sales to foreign countries, hopefully 
folks that are friendly to us, is complicated, because the idea 
that if we don't sell to country X, then they are going to go 
buy from the Russians, the Chinese, whoever they can get these 
weapon systems from. It is a political issue, but it is also a 
security issue for the U.S. to have partners that look to us 
rather than look to the Russians or the Chinese. I understand 
that.
    Let's talk about Lebanon. We are in the process of selling 
weapons to Lebanon. Reports are the Lebanese Government gives 
those small arms to Hezbollah, a terrorist group. Where are we 
on that? How do we know that Lebanon--those arms don't end up 
in the possession of Hezbollah, a terrorist group in Lebanon 
and now in other countries as well?
    Ambassador or Admiral, either one of you. How do we know 
that is not going to happen?
    Ambassador Kaidanow. Thank you again for the question. So 
we are very resolute in supporting the Lebanese armed forces. 
Those armed forces we regard as the most important guarantor, 
if you will, of Lebanese sovereigty and the ability of Lebanon 
as a country to maintain its integrity. We consider that very 
important with regard to what is going on in the region now, 
given the threat of ISIS or Daesh, given the threat of Iran 
extending its arc of influence through----
    Mr. Poe. I get that. How do we know they don't end up in 
the possession of Hezbollah?
    Ambassador Kaidanow. We are watching very, very carefully. 
Extremely carefully. And we are confident, thus far, that no 
weapons have been transferred from the Lebanese Government or 
the Lebanese armed forces into the hands of those who should 
not get it, including Hezbollah.
    Mr. Poe. Do you have a comment, Admiral?
    Admiral Rixey. Well, sir, we would, of course, execute our 
Golden Sentry program and end-use monitoring in that country to 
ensure that that does not happen.
    Mr. Poe. I want to turn to Pakistan. We have been having 
the issue with Pakistan whether they are loyal or playing us 
for years on the issue of aid to Pakistan and sales to 
Pakistan. As mentioned by the gentleman from California, Mr. 
Rohrabacher, when we went in to get Osama bin Laden, we were 
concerned about the Pakistanis scrambling F-16s that we made 
and sold to the Pakistanis so that they wouldn't shoot down 
Americans who were doing the job of taking out this terrorist.
    I personally think Pakistan plays the United States, 
because they turn to China if we don't help them. I understand 
all that. They have nuclear weapons, and we want to have a 
relationship with them so that they don't look to China. I get 
all that. But are we doing anything different on sales to 
Pakistan to make sure those sales of whatever it is aren't used 
against us directly or used against us indirectly because of 
the military helping the Taliban in Afghanistan where we have 
our troops, and those weapons could be used against the United 
States? Are we doing anything different to make sure that 
doesn't happen or are we still using the same formula?
    Ambassador Kaidanow. No. I mean, I think what we applied to 
Pakistan is what we applied to a number of our partner 
countries. But with Pakistan, we have a robust end-use 
monitoring program, extremely robust, to ensure that the items 
that we provide for them are used appropriately and within the 
boundaries of what we have asked them to accomplish.
    We, as you say, regard Pakistan as an important partner on 
counterterrorism issues. They will be essential in bringing the 
Afghan Taliban to the table for peace talks. There are a number 
of things where we need their cooperation and their assistance. 
And we do want to help them on the counterterrorism front. But 
on the other hand, again, we have very big concerns that we 
continuously front with them on support for Haqqani, on support 
for other things. This has been made clear to the Pakistani 
Government at the highest level.
    Mr. Poe. Admiral, you don't want to comment?
    Admiral Rixey. I defer to State.
    Mr. Poe. All right. I am out of time.
    I will mention to the subcommittee and to the witnesses, I 
appreciate you all being here. We will figure out a way to have 
a classified briefing, because we have gone about halfway on 
the questions that we are asking. Many Members of Congress want 
a bottom-line answer to the questions that they ask about the 
different countries during their questioning here in open 
forum. So we will work on that.
    I thank both of you for being here. I know you all have 
time constraints. I was just making sure there is not anybody 
else here.
    The subcommittee is adjourned. Thank you very much. I thank 
the members for being here.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


             Material Submitted for the Record
         
         
         
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
